   August 16, 2004




Acquisition
Implementation of the
DoD Management Control Program
for Air Force Acquisition
Category II and III Programs
(D-2004-108)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

APB                   Acquisition Program Baseline
C4I                   Command, Control, Communications, Computers, and Intelligence
MDA                   Milestone Decision Authority
OMB                   Office of Management and Budget
ORD                   Operational Requirements Document
PESHE                 Programmatic Environmental, Safety, and Health Evaluation
TEMP                  Test and Evaluation Master Plan
          Office of the Inspector General of the Department of Defense
Report No. D2004-108                                                     August 16, 2004
   (Project No. D2004AE-0025)

      Implementation of the DoD Management Control Program for
          Air Force Acquisition Category II and III Programs

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in the Air Force acquisition decision making process should read this report
because it provides an assessment of how the Air Force can improve its management
control program for oversight of Air Force weapon system programs.

Background. This audit is the second in a series of audits to evaluate the effectiveness
of the Military Departments’ management control programs in timely identifying
deviations in cost, schedule, and performance requirements in acquisition program
baselines for Acquisition Category II and III programs to the milestone decision authority
and in identifying whether program managers are reporting their status on preparing and
obtaining approval of required program documentation to milestone decision authorities
before milestone decision reviews.

The first report, Inspector General, DoD Report No. D-2004-47, “Implementation of the
DoD Management Control Program for Army Acquisition Category II and III Programs,”
January 23, 2004, assessed the Army Management Control Program for oversight of
Acquisition Category II and III programs. The third report, Report No. D-2004-109,
“Implementation of the DoD Management Control Program for Navy Acquisition
Category II and III Programs,” August 17, 2004, assessed the Navy Management Control
Program for oversight of Acquisition Category II and III programs.

Results. The Air Force did not effectively integrate the requirements of the DoD
Management Control Program into its management assessment and reporting process for
eight Acquisition Category II and III programs that had an estimated life-cycle cost of
$1.9 billion. As a result, the program managers did not have documented and updated
information needed to more effectively manage their programs. The program managers
further contributed to this condition by not reporting program deviations and not
requesting revisions to acquisition program baselines when cost, schedule, and
performance breaches occurred. Program managers did not provide milestone decision
authorities with timely and documented information so they could assist program
managers who were experiencing cost overruns, schedule delays, and performance
problems. Further, milestone decision authorities made important program decisions at
milestone decision points with incomplete information on the readiness of the systems for
the next phase of the acquisition process. To ensure that Air Force milestone decision
authorities make fully informed investment decisions, the Air Force needs to modify its
existing reporting requirements for program managers of Acquisition Category II and III
programs to report, at least quarterly, their progress toward satisfying cost, schedule, and
performance requirements in acquisition program baselines and obtaining, preparing and
updating, and issuing approved program documentation before and at planned milestone
decision reviews. Implementation of this reporting requirement will enable Air Force
milestone decision authorities to ensure that program managers are on schedule toward
satisfying program requirements, submitting program deviation reports when required,
and reporting deviations from acquisition program baselines as management control
weaknesses. (See the Finding section for details.)

Management Comments. The Air Force did not respond to the July 1, 2004, draft
report. Therefore, we request that the Air Force Acquisition Executive provide
comments on this final report by September 17, 2004.




                                             ii
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               3

Finding
     Air Force Management Controls for Acquisition Category II and III
       Programs                                                          4

Appendixes
     A. Scope and Methodology                                            12
          Management Control Program Review                              13
          Prior Coverage                                                 14
     B. Management Control Objectives and Techniques                     15
     C. Program Documentation Status                                     17
     D. Report Distribution                                              23
Background

            This audit is the second in a series of audits that will evaluate the effectiveness of
            the Military Departments’ management control programs in timely identifying
            deviations in cost, schedule and performance requirements in acquisition program
            baselines (APB) for Acquisition Category II and III programs1 to the milestone
            decision authority (MDA) and in identifying whether program managers are
            preparing and obtaining required program documentation before milestone
            decision reviews. DoD Instruction 5000.2, “Operation of the Defense Acquisition
            System,” May 12, 2003, defines Acquisition Category II programs as major
            systems with an estimated total expenditure for research, development, test and
            evaluation of less than $365 million but more than $140 million, or for
            procurement, of less than $2.19 billion but more than $660 million in FY 2000
            constant dollars. DoD Instruction 5000.2 defines an Acquisition Category III
            program as any program that does not meet the minimum requirements of an
            Acquisition Category II program. The first report, Inspector General, DoD
            Report No. D-2004-47, “Implementation of the DoD Management Control
            Program for Army Acquisition Category II and III Programs,” January 23, 2004,
            assessed the Army Management Control Program for oversight of Acquisition
            Category II and III programs. The third report, Inspector General, DoD Report
            No. D-2004-109, “Implementation of the DoD Management Control Program for
            Navy Acquisition Category II and III Programs,” August 17, 2004, assessed the
            Navy Management Control Program for oversight of Acquisition Category II and
            III programs.

            Assistant Secretary of the Air Force Emphasizes Management Control
            Process. The Assistant Secretary of the Air Force (Financial Management and
            Comptroller) stressed the importance of management controls in a February 25,
            2001, memorandum on stewardship and the Air Force management control
            process. The Assistant Secretary emphasized that strong management controls
            should help to ensure that resources are used efficiently and effectively to achieve
            the intended program results. The Assistant Secretary stated that management
            controls are not an isolated tool but development strategies for reengineering Air
            Force programs in the years ahead. The Assistant Secretary went on to say that
            management controls are an integral part of the entire planning, budgeting,
            management, accounting and reporting cycle.

            Management Control Policy. Office of Management and Budget (OMB)
            Circular A-123, “Management Accountability and Control,” June 21, 1995,

1
    An acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. The acquisition categories consist of I, major Defense acquisition programs; IA,
    major automated information systems; II, major systems; and III, programs not meeting the criteria for
    acquisition categories I, IA, or II.



                                                       1
defines management controls as the organization, policies, and procedures that
agencies use to ensure that programs achieve their intended results; resources are
used consistent with an organization’s mission; programs and resources are
protected from fraud, waste, and mismanagement; laws and regulations are
followed; and reliable data are obtained, maintained, reported, and used for
program decision making. Further, the DoD and the Air Force have issued
guidance to implement the requirements of OMB Circular A-123.

        Federal Policy. OMB Circular A-123 requires DoD to provide an overall
annual statement to the President and Congress explaining the state of DoD
management controls, any control weaknesses, and noncompliant accounting
systems. The Secretary of Defense is required to state whether DoD management
controls provide reasonable assurance that resources are being protected from
fraud, waste, and mismanagement. Circular A-123 provides guidance for
establishing, evaluating, improving, and reporting on management controls in
programs and administrative organizations. Further, it directs that executive
organizations establish cost-effective management control systems to provide
reasonable assurance that resources are protected against fraud, waste, and
mismanagement and that program activities be effectively and efficiently
managed to achieve the goals of the organization. Circular A-123 also states that
Federal managers must carefully consider the appropriate balance of controls in
their programs and operations. Appropriate management controls should be
established and integrated into each system to direct and guide operations.
However, Circular A-123 notes that a separate management control process need
not be instituted, particularly if its sole purpose is to satisfy management control
reporting requirements.

        DoD Policy. To satisfy the OMB requirement, DoD Directive 5010.38,
“Management Control (MC) Program,” August 26, 1996, requires that the
Military Departments, the Defense agencies, and the major joint commands
submit annual statements on their management controls to the Secretary of
Defense. There are no exemptions for acquisition programs. DoD
Directive 5010.38 also provides policy, prescribes procedures, and assigns
responsibilities for management control systems. DoD Directive 5000.1, “The
Defense Acquisition System,” May 12, 2003, requires program managers to
establish program goals for cost, schedule, and performance parameters that
describe the program over its life cycle. Directive 5000.1 further states that
approved program baseline parameters will serve as control objectives, and that
the program manager is required to identify deviations from approved program
baseline parameters and exit criteria. Further, the, “DoD Interim Defense
Acquisition Guidebook,” October 30, 2002, states that the program manager
should identify deviations from the approved parameters and exit criteria as
material weaknesses.



                                     2
           Air Force Policy. Air Force Policy 65-201, “Management Control,”
    May 1, 1997, implements public law and OMB and DoD guidance for a
    management control process, and requires Air Force commanders and managers
    to maintain an effective control process that identifies, reports, and corrects
    material weaknesses.

    Scope of Air Force Programs Reviewed. To perform the audit, we coordinated
    with seven Air Force Program Executive Offices to identify Acquisition
    Category II and III programs for our review that were beyond the concept and
    technology development phase, but that had not received approval for full-rate
    production. The Acquisition Category II systems identified included the
    Integrated Broadcast Service, the Family of Advanced Beyond-Line-of-Sight
    Terminals, and the Miniature Air Launch Decoy. The Acquisition Category III
    systems identified included the Command and Control System-Consolidated, Air
    Force Terminal Instrument Procedures-Replacement, Common Low Observable
    Verification System, Universal Munitions Trailer, and F-15E Advance Display
    Core Processor.


Objectives

    The overall audit objective was to evaluate the effectiveness of the management
    control program that the Air Force Acquisition Executive, or his designees, used
    for Air Force Acquisition Category II and III weapon systems. We also assessed
    the process for recognizing and correcting material management control
    weaknesses. See Appendix A for a discussion of the scope and methodology and
    the review of the management control program. See Appendix A for prior
    coverage related to the objectives. Appendix B defines management control
    objectives and techniques. Appendix C summarizes the status of certain program
    documentation prepared for the eight programs reviewed.




                                        3
            Air Force Management Controls for
            Acquisition Category II and III Programs
            The Air Force did not effectively integrate the requirements of the DoD
            Management Control Program into its management assessment and
            reporting process for eight Acquisition Category II and III programs that
            had an estimated life-cycle cost of $1.9 billion. This condition occurred
            because the existing reporting mechanism in the Air Force did not require
            program managers to inform MDAs, at least quarterly, of their progress
            toward:

               •   satisfying cost, schedule, and performance requirements in APBs;
                   and

               •   obtaining, preparing, updating, and issuing approved program
                   documentation before and at planned milestone decision reviews.

            As a result, the program managers did not have documented and updated
            information needed to more effectively manage their programs. The
            program managers further contributed to this condition by not reporting
            program deviations and not requesting revisions to APBs when cost,
            schedule, and performance breaches occurred. As a result, program
            managers did not provide MDAs with timely and documented information
            so they could assist program managers who were experiencing cost
            overruns, schedule delays, and performance problems. Further, MDAs
            made important program decisions at milestone decision points with
            incomplete information on the readiness of the systems for the next phase
            of the acquisition process.


Air Force Management Control Program

    On July 23, 2003, the Office of the Secretary of the Air Force restructured the Air
    Force Program Executive Officers reporting process. The Air Force management
    structure intended the process to reduce workload and promote ownership and
    accountability for effective management controls by:

        •   developing and implementing appropriate, cost effective management
            controls,

        •   assessing the adequacy of management controls in all programs and
            operations,



                                         4
    •   identifying needed improvements,

    •   taking corresponding corrective action, and

    •   reporting annually on management controls.

Air Force Management Control Program Requirements. The Assistant
Secretary of the Air Force (Financial Management and Comptroller) developed
the Air Force’s management control program based on the General Accounting
Office’s five standards for internal control: control environment, risk assessment,
control activities, communication and information, and monitoring. All Air Force
commands are required to establish a management control program and
continuously monitor and improve the effectiveness and accountability of
management controls associated with their programs. Each command is to update
its written plan annually, and include information that indicates the number of
scheduled and accomplished management control evaluations, the inventory of
assessable units, progress toward accomplishment of annual program
requirements, the method of monitoring and evaluation, and the completion date
of the evaluation. Emphasis is placed on maximizing the use of existing
management evaluation data and minimizing the creation of processes or
procedures solely to execute the management control program. It is the
responsibility of the Management Control Program Coordinator to prepare the
organization’s management control plan and annual management control
statement.

Management Controls for Acquisition Programs. Program documentation
was a key component in the management control plans provided by the eight
Acquisition Category II and III program offices. Milestone documentation is
relied on as one of the key management controls for acquisition programs, and
the milestone decision review process for evaluating controls was in place. The
Air Force’s process to evaluate management controls for acquisition programs
did not, however, keep MDAs informed of the program managers’ progress
toward satisfying program requirements before milestone decision reviews.
Accordingly, the Air Force’s Management Control Program for acquisition
programs did not ensure that program managers took the necessary actions to
satisfy the program’s cost, schedule, and performance requirements in the APBs
before milestone reviews. The Air Force’s Management Control Program also
did not ensure that program managers reported deviations from APB cost,
schedule, and performance parameters, or that those breaches were reported as
management control weaknesses to the Assistant Secretary of the Air Force
(Financial Management and Comptroller).




                                     5
Air Force Reporting Process

    The existing reporting mechanism in the Air Force did not require program
    managers for Acquisition Category II and III programs to inform the MDA, at
    least quarterly, of their progress towards satisfying cost, schedule, and
    performance requirements in approved APBs and of exit criteria requirements for
    the next phase of the acquisition process. The Air Force has more than 1,400
    Acquisition Category II and III programs. Without a reporting mechanism in
    place, the Air Force MDAs cannot provide appropriate oversight for those
    programs. Although Acquisition Category II and III programs are valued less
    than Acquisition Category I programs, the sheer number of Acquisition Category
    II and III programs contributes to a large aggregate total. Given funding
    constraints, the Air Force needs to manage wisely its overall investment dollars
    and cannot afford to overlook the oversight of the Acquisition Category II and III
    programs.

    The reporting process used by the Program Executive Officers did not require the
    Air Force program managers to report on their efforts to obtain, prepare, and
    update approved program documentation before planned milestone decision
    reviews. The program documentation is to be prepared and approved before
    milestone decision points, kept up-to-date between milestone decision reviews,
    and provide the MDA with the management control information required in DoD
    Directive 5000.1 to timely identify program deviations from approved APB
    parameters and exit criteria. As implemented, the Air Force’s management
    assessment and reporting processes did not provide MDAs with that management
    control information. To be effective, the Air Force’s management control
    program should integrate those management control requirements in its
    management assessment and reporting processes.

    Reporting on Cost, Schedule, and Performance Requirements. Program
    managers for major DoD acquisition programs are required to report quarterly on
    their progress towards satisfying cost, schedule, and performance requirements,
    including approved program baseline parameters and exit criteria requirements, in
    the Defense Acquisition Executive Summary. On April 2, 1999, the Principal
    Deputy Assistant Secretary (Acquisition and Management) began requiring all
    Acquisition Category II and III programs encountering programmatic issues to
    submit monthly status reports, and required the remaining programs to submit
    quarterly status reports. On December 11, 2002, the Deputy Assistant Secretary
    (Management Policy and Program Integration) required all program offices to
    implement the system metric and reporting tool. A key feature of the system
    metric and reporting tool is to provide the MDA with information included in a
    monthly acquisition report. Although the memorandum requires program
    managers to submit monthly and quarterly status reports, it does not require
    program managers to inform MDAs, at least quarterly, of their progress toward


                                         6
satisfying cost, schedule, and performance requirements in the acquisition
program baseline and exit criteria requirements.

        Reporting for Acquisition Category II Programs Reviewed. Program
managers for the three Acquisition Category II programs reviewed prepared
monthly acquisition reports, two of the three program managers prepared program
management reviews, and one of the program managers prepared semi-annual
portfolio reviews for the Program Executive Office.

       Reporting for Acquisition Category III Programs Reviewed. Program
managers for the five Acquisition Category III programs reviewed prepared
monthly acquisition reports, four of the program managers prepared for program
management reviews, and three of the program managers prepared for semi-
annual portfolio reviews for the Program Executive Office.

        Adequacy of Reported Information. The monthly acquisition reports,
program management reviews, and Program Executive Office semi-annual
reviews that the program offices prepared provided the MDA with up-to-date
APB cost, schedule, and performance data, but did not, in most cases, provide the
APB threshold values for the MDA to compare the data with. Without listing the
APB thresholds with the existing program status, the MDA may not realize that
the program is over budget or behind schedule. Additionally, the program office
reports did not provide the MDA with information on whether the program would
achieve the exit criteria established at the last milestone decision review. The
inclusion of the APB threshold values and exit criteria for the next phase of the
acquisition process in the program managers’ reports would inform the MDAs of
deviations from approved APB parameters and exit criteria.

Reporting on the Preparation and Completion of Required Program
Documentation. DoD and Air Force procedures do not require program
managers to advise MDAs on their progress towards completing and obtaining
key program documentation, such as the operational requirements document
(ORD), the APB, the test and evaluation master plan (TEMP), and the command,
control, communications, computers, and intelligence (C4I) support plan before
program initiation, which are usually required when a program enters the system
development and demonstration acquisition phase. At program initiation and
before subsequent program milestone reviews, however, DoD and Air Force
policy requires program managers to provide those key program documents for
the MDA to review.

For all eight programs reviewed, program managers held milestone reviews with
MDAs for entry into the system development and demonstration phase of the
acquisition process before preparing, updating, or obtaining all required
documentation. For example, the Air Force Program Executive Office for
Aircraft Systems approved the F-15E Advanced Display Core Processor to enter


                                    7
the system development and demonstration phase of the acquisition process in
June 1999, even though the program manager did not have an approved APB,
C4I support plan, Programmatic Environmental, Safety, and Health Evaluation
(PESHE) or TEMP. The ORD identified interoperability as a key performance
parameter. Because the program manager did not have an approved C4I support
plan, contract requirements defining all the key system interfaces with other
systems may not have been identified and provided to the system contractor.

Program documentation that was not available to MDAs at milestone reviews
varied significantly among the programs reviewed. For instance, program
managers for two programs did not have an approved ORD, program managers
for seven programs did not have an approved TEMP, and program managers for
six programs did not have an approved C4I support plan available at their
previous milestone review. Without an approved ORD that contains validated
system performance requirements, the program manager and contractor cannot be
sure that the system design will meet warfighter-required capabilities, and the test
community does not have validated performance parameters for developmental
and operational testing. An approved TEMP is an essential tool for the program
manager and operational testers to identify resources needed to perform necessary
tests and to test all key performance parameters. The C4I support plan is critical
not only for system design, but for the test organizations to identify system
integration problems that need to be corrected during testing. Although
acquisition regulations encourage management to streamline and tailor acquisition
documentation, the ORD, the TEMP, and the C4I support plan must be prepared
and completed to provide the MDA with information needed to assess how well a
program is progressing toward the next milestone review in the acquisition
process.

Updating Program Documentation Between Milestone Decision Reviews.
Additionally, program managers did not provide MDAs with updated program
documentation between milestone decision reviews when significant changes
affected their programs because they believed that updating program
documentation added no value to the process when MDAs were made aware of
the changes through other means. For example, the Program Manager for the
Family of Advanced Beyond-Line-of-Sight Terminals experienced significant
cost and schedule deviations because of funding cuts. In this case, the program
manager did not submit a program deviation report to document the effects on the
program, partly because no APB had been prepared to measure thresholds against.
Instead, the program manager communicated information on cost and schedule
breaches through quarterly program management reviews, monthly activity
reports, and weekly activity reports to the MDA. It is important for program
managers to document significant changes to program direction in cost, schedule,
and performance requirements so that all parties affected by the changes,
including the intended user of the system and the test community, can plan and


                                     8
react accordingly. Updating formal program documentation is essential to ensure
that the program manager evaluates the effect of the changes on all aspects of the
program.

Appendix C describes the completeness of program documentation available at
milestone decision reviews for the eight programs reviewed. Without having all
required program documentation, the program manager and the MDA may not be
aware of potential or actual cost, schedule, and performance problems affecting
the program at the time of the milestone decision review. For example, the
Family of Advanced Beyond-Line-of-Sight Terminals experienced schedule
delays and cost overruns after the program entered the system development and
demonstration phase because the test community encountered more testing
requirements than had been planned. Because the TEMP was not completed and
fully reviewed within the test community, the program manager’s estimates on
the time and resources needed for testing were not realistic.

If program managers of the eight programs reviewed had formally reported delays
to the MDAs in the completion or approval process for key program documents,
such as the ORD and the TEMP, the MDAs could have initiated actions to
prepare, update, and approve the documentation before the milestone decision
reviews, or to reschedule the milestone decision reviews pending the completion
of required program documentation. Because program managers were not
periodically reporting on their status toward completing or obtaining required
program documentation, MDAs did not have information needed to take
appropriate actions before the milestone decision reviews for the eight programs
reviewed. MDAs also were not requesting information concerning the status of
program documentation completion from program managers before program
milestone reviews.

Program Deviation Reporting Requirements. In addition to not routinely
reporting on program status towards satisfying program cost, schedule, and
performance parameters in APBs, program managers for five of the eight
acquisition programs did not have APBs to compare threshold values with at their
last milestone decision review; therefore, they did not prepare program deviation
reports to show threshold value breaches. Additionally, two program managers
with APBs did not prepare program deviation reports for cost breaches.
Reporting program deviations is an essential communication between the program
managers and MDAs because it serves as an early warning of impending program
complications and allows the MDA to help with a program solution. If program
managers do not submit APBs, the program deviations can go unnoticed by the
MDA while the program manager attempts to bring the program back into
control.




                                     9
    Although program managers were not reporting breaches of APB parameters as
    management control weaknesses as required in DoD Directive 5000.1 and the
    DoD Interim Guidebook, they did request revisions of APB parameters when
    approaching a breach of a parameter. Therefore, program managers did not report
    breaches of an APB parameter as a management control weakness to the Assistant
    Secretary of the Air Force (Acquisition) as required. As a result, the Assistant
    Secretary of the Air Force (Acquisition) did not consider those APB parameter
    breaches for inclusion as a material management control weakness in the FY 2003
    statement of assurance.


Effect of Management Control Techniques on Program
  Documentation

    Program documentation is the primary means for providing the MDA, as well as
    other key managers, with information needed for decision making. Without
    accurate and updated program documents, such as the APB, the ORD, the TEMP,
    and the C4I support plan, along with the program manager’s periodic reporting of
    progress made toward satisfying those requirements, the program manager cannot
    provide assurance to the MDA that cost, schedule, and performance thresholds in
    the APB are being achieved and that the program is affordable. Without this
    information, program managers and MDAs did not have documented information
    needed for program management and oversight, and MDAs did not have
    information needed to assist program managers who were experiencing program
    cost overruns, schedule delays, and performance problems. Further, MDAs did
    not have the information they needed at milestone decision points to make
    informed program decisions on the readiness of the systems to continue into the
    next phase of the acquisition process.


Conclusion

    The management control program for Air Force Acquisition Category II and III
    programs varied depending upon the commitment of program management. As a
    result of the Air Force program offices maximizing the use of existing
    management evaluation data to accomplish their management control
    assessments, the assessments did not, in most cases, provide timely management
    control information to MDAs on the program managers’ progress toward
    satisfying cost, schedule, and performance parameters in APBs, which are the
    control objectives for acquisition programs established in DoD Directive 5000.1.

    Techniques to achieve control objectives also exist in the preparation and
    presentation of key documents such as the APB agreement, earned value


                                        10
    management data, and operational test reports. Accordingly, modifying the
    existing Air Force reporting requirements for Acquisition Category II and III
    programs to include APB threshold values, exit criteria, and program performance
    for those requirements would provide Air Force MDAs with management control
    information to implement the requirements in DoD Directive 5000.1 and would
    satisfy the management control reporting requirements in DoD Directive 5010.38.

    Because of the conditions identified during the audit, the Air Force Acquisition
    Executive should implement the following recommendations to improve the Air
    Force existing management control reporting requirements for Acquisition
    Category II and III programs.


Recommendations

    1. We recommend that the Air Force Acquisition Executive modify its existing
    reporting requirements for program managers of Acquisition Category II and III
    programs to report to the milestone decision authority, at least quarterly, on their
    progress towards satisfying cost, schedule, and performance parameters in
    approved acquisition program baselines, satisfying exit criteria for the next phase
    in the acquisition process, and obtaining and preparing key program
    documentation, such as the operational requirements document; the test and
    evaluation master plan; and the command, control, computers, communications,
    and intelligence support plan between and for milestone decision reviews.

    2. We recommend that Air Force Program Executive Officers:

            a. Use information in the program managers’ progress reports discussed
    in Recommendation 1. to require that program managers prepare program
    deviation reports when breaches of acquisition program baseline parameters
    occur.

            b. Report breaches of acquisition program baseline parameters and
    unattained program exit criteria to the Assistant Secretary of the Air Force
    (Acquisition) for consideration as material management control weaknesses for
    inclusion in the Air Force annual statements of assurance as required in DoD
    Directive 5000.1, “The Defense Acquisition System,” May 12, 2003, and DoD
    Directive 5010.38, “Management Control (MC) Program,” August 26, 1996.




                                         11
Appendix A. Scope and Methodology
           To perform the audit, we coordinated with the Air Force Program Executive
           Offices to select Acquisition Category II and III programs for our review that
           were beyond the concept and technology development phase, but had not entered
           the production and deployment phase of the acquisition process. Accordingly, we
           reviewed the following eight Air Force acquisition programs that the Air Force
           Program Executive Offices identified:

           PEO Aircraft Systems

               •    Common Low Observable Verification Systems1

               •    F-15E Advanced Display Core Processor Program1

           PEO Command and Control

               •    Air Force Terminal Instrument Procedures-Replacement1

               •    Integrated Broadcast Service2

           PEO Space

               •    Command and Control System-Consolidated1

               •    Family of Advanced Beyond-Line-of-Sight Terminals 2

           PEO Weapons

               •    Miniature Air Launched Decoy2

               •    Universal Munitions Trailer1

           In reviewing the management control process used by the Air Force for
           Acquisition Category II and III programs, we examined FY 2002 and FY 2003
           management control documentation. That documentation included management
           control-related tasking from the Assistant Secretary of the Air Force (Financial
           Management and Comptroller), the Assistant Secretary of the Air Force
           (Acquisition), the Air Force Program Executive Offices; Air Force annual
           statements of assurance; and supporting documentation. We reviewed those
           documents to identify whether a standardized procedure was in place to complete
1
    Acquisition Category III.
2
    Acquisition Category II.



                                                12
    and submit the required documentation and to determine whether the Air Force
    had identified any material management control weaknesses for Air Force
    Acquisition Category II and III programs.

    To evaluate the reporting process used by the Air Force to support its
    management control of acquisition programs, we reviewed documentation dated
    from June 1995 through June 2004. The documentation included acquisition
    decision memorandum, APBs, acquisition strategy reports, affordability
    assessments, analyses of alternatives, C4I support plans, PESHEs, ORDs, and
    TEMPs for the eight Air Force programs selected for review. We reviewed those
    documents to ensure that the required program documentation for each program
    was complete, accurate, and up-to-date.

    We performed this audit from November 2003 through June 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons Systems Acquisition high-risk area.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives in APBs to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to program cost, schedule, and performance
    in APBs. We also reviewed the adequacy of management’s self-evaluation of
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Air Force, as defined in DoD Instruction 5010.40. The
    Air Force Acquisition Executive and the Program Executive Officers did not
    ensure that controls for obtaining, preparing, updating, and approving program



                                       13
     documentation and preparing program deviation reports were sufficient that
     program managers timely provided MDAs with acquisition program
     documentation needed to effectively oversee a program’s cost, schedule, and
     performance data at and between milestone decision reviews.
     Recommendations 1. and 2., if implemented, will improve the quality and
     timeliness of program information provided to Air Force MDAs so that they can
     make fully informed investment decisions. A copy of the report will be provided
     to the senior official responsible for management controls in the Air Force.

     Adequacy of Management’s Self-Evaluation. None of the Program Executive
     Offices or program offices reviewed identified management control weaknesses
     related to preparing and updating required acquisition program documentation
     used for program oversight and decision making. The Program Executive
     Officers and program managers did not report those weaknesses because they did
     not recognize the lack of up-to-date documentation as a management control
     weakness.


Prior Coverage

     During the last 5 years, the Air Force Audit Agency issued one report that
     addressed management control weaknesses for an acquisition program.

Air Force Audit Agency
     Report No. F2003-0002-FCQ000, “Integrated Broadcast Service Electronic
     Systems Center, Hanscom AFB MA,” May 12, 2003




                                         14
Appendix B. Management Control Objectives
            and Techniques
   Control Objectives. Control objectives are the specific goals, conditions, or
   levels of control that a manager establishes for an assessable unit to provide
   reasonable assurance that the resources assigned to that organization are
   adequately safeguarded against waste, fraud, and mismanagement.

   Control objectives must be identified for each organization and should be logical,
   applicable, reasonably complete, and tailored to an agency’s operations, which
   means that the control objectives should be the positive effects that management
   tries to attain or the negative effects it seeks to avoid through adherence to
   established management controls.

   For Air Force acquisition programs, basic control objectives involve the program
   office’s ability to adhere to a weapon system’s cost, schedule, and performance
   baseline parameters that are embodied in APBs. The program manager updates
   and the MDA approves the APB at milestone reviews. As weapon systems
   progress through the acquisition process, baseline parameters are refined and the
   level of detail evolves at succeeding milestone reviews. The program manager
   identifies minimum acceptable requirements for each baseline parameter, known
   as thresholds. Values for APB parameters show the system’s cost and
   performance characteristics as they are expected to be produced and fielded, as
   well as critical acquisition schedule events. If those minimum acceptable levels
   or thresholds are not met, the MDA may require a reevaluation of alternative
   concepts or design approaches.

   Program exit criteria are also control objectives for Air Force acquisition
   programs. Exit criteria are the specific minimum requirements that a system must
   satisfactorily demonstrate before the MDA will consider approving the system for
   transitioning to the next acquisition phase.

   Control Techniques. Control techniques are mechanisms by which control
   objectives are achieved. A control technique is any form of organization,
   procedure, or document flow that is relied on to accomplish a control objective
   and help safeguard or protect an organization from fraud, waste, and
   mismanagement. Control techniques include, but are not limited to, specific
   policies, procedures, plans of organization (including separation of duties), and
   physical arrangements (such as locks and fire alarms). Management control
   techniques are to continually provide a high degree of assurance that the
   management control objectives are being achieved.




                                        15
For Air Force acquisition programs, the milestone review documentation
specified in DoD Instruction 5000.2, “Operation of the Defense Acquisition
System,” May 12, 2003, provides control techniques to achieve the control
objectives. The management control techniques in the Instruction include the
documents in the following table.

                              Management Control Techniques

Control Technique        Objective(s) Controlled               Prepared By             Submitted To

APB Agreements           Cost, schedule, and                   Program Manager         MDA
                         performance baselines
Command, Control,        C4I support requirements to           DoD Component           MDA
Computers,               satisfy the development,
Communications,          testing, and operational
and Intelligence         employment of the system
(C4I) Support Plan
Earned Value             Reports the progress of the           Contractor              Program Manager
Management Data          program in meeting cost
                         parameters
Operational              Translates mission needs into         DoD Component           Service
Requirements             detailed performance
Document (ORD)           capabilities and characteristics
Operational Test         Reports on the progress of the        Independent Test        Program Manager
Reports                  program in meeting                    Agency
                         performance parameters
Test and Evaluation      Major elements and objectives         Program Manager         Director,
Master Plan (TEMP)       of the test and evaluation                                    Operational Test
                         program                                                       and Evaluation;*
                                                                                       MDA; and Air
                                                                                       Force Operational
                                                                                       Test and
                                                                                       Evaluation Center

*The Director, Operational Test, and Evaluation approves the TEMP for all test and evaluation oversight
programs in the Office of the Secretary of Defense.


DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
August 28, 1996, requires system documentation to be maintained for
management control programs. System documentation includes the policies and
procedures, organizational charts, manuals, flow charts, and related written and
graphic materials necessary to describe organizational structure, operating
procedures, and administrative practices to communicate responsibility and
authority for accomplishing programs and activities. This type of management
control documentation is specified in DoD Instruction 5010.40.



                                               16
Appendix C. Program Documentation Status
           DoD Instruction 5000.2 identifies mandatory program documents that program
           managers must provide at program milestone reviews. The DoD Interim Defense
           Acquisition Guidebook explains the importance of the acquisition program
           documents. The following table of five mandatory acquisition program
           documents shows whether the program managers for the eight programs reviewed
           provided the MDA with the completed and approved documents at the acquisition
           program’s last milestone decision review.
                              Mandatory Program Documentation Provided



                                         C4I
                                        Support
            Program           APB        Plan            ORD   PESHE           TEMP

           AFTERPS-R1          No         No             No    No              No

           CCS-C2              No         No             Yes   No              No

           CLOVerS3            Yes        N/A            Yes   No              No

           FAB-T4              No         No             Yes   No              No

           F-15E5              No         No             Yes   No              No

           IBS6                Yes        No             Yes   Yes             Yes

           MALD7               Yes        No             Yes   No              No

           UMT8                No         N/A            No    N/A             No




1
    Air Force Terminal Instrument Procedures-Replacement.
2
    Command and Control System-Consolidated.
3
    Common Low Observable Verification Systems.
4
    Family of Advanced Beyond-Line-of-Sight Terminals.
5
    F-15E Advanced Display Core Processor Program.
6
    Integrated Broadcast Service.
7
    Miniature Air Launched Decoy.
8
    Universal Munitions Trailer.
                                                   17
Importance of Milestone Documents

    Acquisition Program Baseline. Every acquisition program must have an APB at
    program initiation. The program manager prepares the APB in coordination with
    the user to document the most important cost, schedule, and performance
    parameters (both threshold and objective) for the program. The program manager
    bases the APB on user performance requirements, schedule requirements, and an
    estimate of total program cost. The program manager, in coordination with the
    user, should obtain approval for a revised APB if the program is restructured or if
    there is an unrecoverable program deviation.

    C4I Support Plan. DoD Components must develop C4I support plans for all
    programs early in the acquisition process when the Components connect in any
    way to the communication and information infrastructure. Acquisition decision
    makers are required to review the C4I support plan at each program milestone
    decision; at decision reviews, as appropriate; and whenever support requirements
    change. A C4I support plan assists in identifying system integration issues that
    need to be addressed during testing.

     Operational Requirements Document. The ORD is a formatted statement
     containing performance parameters for the proposed concept or system that is
     prepared by the user or the user’s representative. An ORD provides the
     developmental and operational testers with the ability to determine whether the
     system meets minimum required system capabilities.

    Programmatic Environmental Safety and Health Evaluation. The program
    manager is to initiate the evaluation at the earliest possible time in support of a
    program initiation decision and maintain an updated evaluation throughout the
    life cycle of the program. When program managers perform the analyses for the
    PESHE, they gain information on the potential environmental, safety, and health
    effects of developing, fielding, storing, demilitarizing, and disposing of their
    weapon systems. Information should be obtained before the program enters the
    system development and demonstration phase to prevent program delays and
    added program costs stemming from the violation of environmental, safety, or
    health laws.

    Single Acquisition Management Plan. The single acquisition management plan
    is a comprehensive, integrated plan written at the strategic level, which discusses
    all relevant aspects of a program.

    Test and Evaluation Master Plan. The TEMP documents the overall structure
    and objectives of the test and evaluation program. It provides a framework within
    which to generate detailed test and evaluation plans and to document schedule
    and resource implications associated with the test and evaluation program. The
    TEMP identifies necessary developmental test and evaluation, operational test
    and evaluation, and live-fire test and evaluation activities. An approved TEMP is
                                          18
    an essential tool for the program manager and operational testers to identify
    resources needed to perform necessary tests and to test all key performance
    parameters and resolve problem areas.


Program Documentation Status

    Air Force Terminal Instrument Procedures-Replacement. The System
    Program Director, Global Air Traffic Operations/Mobility Command and Control
    approved the Air Force Terminal Instrument Procedures-Replacement Program to
    enter the production and deployment phase for Release A and the system and
    demonstration phase for Release B on April 2, 2003. At the milestone decision
    review, the program office did not have an approved APB, C4I support plan,
    ORD, PESHE, or TEMP for MDA review. The system program director
    approved the APB on May 12, 2004. The PESHE was approved on May 26,
    2004. As of June 2004, the program office had not completed or obtained
    approval of the C4I support plan, ORD, and TEMP.

    The program office developed a requirements correlation matrix to replace the
    ORD but the requirements correlation matrix is not a stand-alone document. The
    Joint Integration and Test Command concluded that some Air Force Terminal
    Instrument Procedures-Replacement system interfaces need to be tested and
    certified so that the program can meet its DoD regulatory obligations. However,
    the Joint Integration and Test Command will not certify the Air Force Terminal
    Instrument Procedures-Replacement system without a Joint Staff-certified ORD.
    Because the program does not have a certified ORD, the program office
    unilaterally determined that Joint Integration and Test Command certification was
    not required. Accordingly, the system program director requested that the Air
    Force Communications Agency waive the C4I support plan requirement because
    the requirements correlation matrix does not include an interoperability key
    performance parameter. Because the program office did not believe that a TEMP
    was required for an Acquisition Category III program, it developed a test and
    evaluation concept plan dated March 19, 2003.

     Command and Control System-Consolidated. The Command and Control
     System-Consolidated Program Office did not have an approved acquisition
     decision memorandum to document the approval to enter the system
     development and demonstration phase of the acquisition process. The Command
     and Control System-Consolidated entered the system development and
     demonstration phase in February 2001. Further, the program office did not have
     an approved APB, C4I support plan, PESHE, or TEMP. As of June 2004, the
     program office had not completed or obtained approval of the APB, C4I support
     plan, PESHE, and TEMP. The ORD identified system interoperability
     requirements in the C4I support plan as a key performance parameter. The
     program office prepared the C4I support plan and the PESHE and should be

                                        19
           approved by fall 2004. The TEMP was projected to be completed by June 2004,
           and the APB is in coordination.

           Common Low Observable Verification System. The Commander,
           Aeronautical Systems Center approved the Common Low Observable
           Verification System to enter the engineering, manufacturing, and development
           phase of the acquisition process on May 6, 1999. At the milestone decision
           review, the program office did not have an approved PESHE or TEMP for MDA
           review. The PESHE was not approved until January 2003, 3.5 years after the
           milestone decision review. Instead of preparing a TEMP, the program office
           developed a broad, top-level test strategy in the single acquisition management
           plan.

           F-15E Advanced Display Core Processor. The F-15E Advanced Display Core
           Processor Program Office did not have an approved acquisition decision
           memorandum to document the approval to enter the system development and
           demonstration phase of the acquisition process. The F-15E Advanced Display
           Core Processor entered the system development and demonstration phase on
           June 8, 1999. At that time, the program office did not have an approved APB,
           C4I support plan, PESHE, or TEMP. As of June 2004, the documents had not
           been completed or approval obtained because, according to the program office,
           the TEMP and the C4I support plan1 were not required for an Acquisition
           Category III program. Additionally, the program office stated that it did not have
           to develop a C4I support plan because the Advanced Display Core Processor did
           not have any external interfaces. Further, the program office considered the
           single acquisition management plan as a substitute for the APB and had no plans
           to develop and obtain approval of an APB.

           The program office’s statements that a C4I support plan was not required because
           the F-15E Advanced Display Core Processor was an Acquisition Category III
           program and it did not have any external interfaces is contrary to policy in both
           CJCS Instruction 6212.01B, “Interoperability and Supportability of National
           Security Systems, and Information Technology Systems,” May 8, 2000, and its
           revision, CJCS Instruction 6212.01C, “Interoperability and Supportability of
           Information Technology and National Security Systems,” November 8, 2003.
           Specifically, CJCS Instruction 6212.01B states that the C4I support plan is
           required for all systems, regardless of acquisition category, to identify
           dependencies and interface requirements between systems. Similarly, CJCS
           Instruction 6212.01C requires the Information Support Plan,1 regardless of
           acquisition category, for all developmental and fielded systems to permit
           evaluation of system interoperability and supportability requirements.
           Additionally, although the Advanced Display Core Processor does not directly
           interface with external systems, it does enhance the overall interoperability of the
           F-15E aircraft. As stated in the ORD, the Advanced Display Core Processor will
1
    C4I support plan now designated as the Information Support Plan in CJCS Instruction 6212.01C.
                                                    20
allow the F-15E to receive and display various types of information, including
correlated airborne and ground tracks, and with other fighter aircraft and sensor
platforms (such as the Airborne Warning and Control System).

CJCS Instruction 6212.01B specifically states that hardware and software
modifications that affect the interoperability of fielded systems will require Joint
Interoperability Test Command recertification before the system modifications
are fielded for initial operational capability. The Joint Interoperability Test
Command uses the C4I support plans to support the recertification of modified
systems. Similarly, CJCS Instruction 6212.01C requires the Information Support
Plan to support interoperability certification for modified systems. As of June
2004, the Joint Interoperability Test Command had not certified that the F-15
platform met DoD interoperability requirements because the F-15 program office
had not prepared a C4I support plan for the overall F-15 system, which would
include the Advanced Display Core Processor and the F-15 platform.

Instead of preparing a TEMP, the program office addressed the test strategy in the
single acquisition management plan. The F-15 System Program Office prepared
the PESHE in January 2003 but, as of June 2004, it still had not been approved.

Family of Advanced Beyond-Line-Of-Sight Terminals. The Family of
Advanced Beyond-Line-Of-Sight Terminals Program Office did not have an
approved acquisition decision memorandum to document the approval to enter the
system development and demonstration phase of the acquisition process. The
Family of Advanced Beyond-Line-Of-Sight Terminals entered the system
development and demonstration phase on September 20, 2002. At that time, the
program office did not have an approved APB, C4I support plan, PESHE, or
TEMP. As of June 2004, the documents had not been completed or approval
obtained. A new program manager took over in November 2003, at which time a
review of all major program documents was conducted and the decision was made
to update the documents when the program becomes an Acquisition Category I
program sometime during the summer of 2004. According to the deputy program
manager, the status of documents was briefed to the MDA and the Program
Executive Officer at the November 2003 program management review.

Integrated Broadcast Service. The Principal Deputy Assistant Secretary of the
Air Force (Acquisition and Management) approved the Integrated Broadcast
Service to enter the engineering, manufacturing, and development phase of the
acquisition process on May 2, 2001. At the milestone decision review, the
program office did not have an approved C4I support plan for MDA review. As
of June 2004, the program office had prepared a C4I support plan but was waiting
for review and further guidance from the Air Force Communications Agency.

Miniature Air Launched Decoy. The Commander, Air Armament Center
approved the Miniature Air Launched Decoy Program to enter the system
development and demonstration phase on January 6, 2003. At the milestone
                                     21
decision review, the program office did not have an approved TEMP, C4I support
plan, and PESHE for MDA review. The TEMP was not approved until March 3,
2003, 2 months after the milestone decision review. The program office provided
a C4I support plan dated April 2003 that had not been approved, but planned to
have a completed and approved PESHE by May 2006.

Universal Munitions Trailer. The Universal Munitions Trailer Program Office
did not have an approved acquisition decision memorandum to document the
approval to enter the system development and demonstration phase of the
acquisition process. The Universal Munitions Trailer program entered the system
development and demonstration phase on September 10, 2002. At that time, the
program office did not have an approved APB, ORD, and TEMP. As of June
2004, the program office had not completed and obtained approval of a TEMP or
obtained an approved ORD. The program office developed a requirements
correlation matrix to replace the ORD, but the requirements correlation matrix is
not a stand-alone document. Instead of preparing a TEMP, the program office
developed a draft combined developmental and operational test and evaluation
plan because the program office believed that a TEMP was not required for an
Acquisition Category III program.




                                   22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Director, Program Analysis and Evaluation
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
  Program Executive Officer, Aircraft Systems
      Program Manager, Common Low Observable Verification System
      Program Manager, F-15E Advanced Display Core Processor
  Program Executive Officer, Command and Control & Combat Support
      Program Manager, Air Force Terminal Instrument Procedures-Replacement
      Program Manager, Integrated Broadcast Service
  Program Executive Officer, Space
      Program Manager, Command and Control System-Consolidated
      Program Manager, Family of Advanced Beyond-Line-of-Sight Terminals
  Program Executive Officer, Weapons
      Program Manager, Miniature Air Launched Decoy
      Program Manager, Universal Munitions Trailer
Auditor General, Department of the Air Force




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        24
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

John E. Meling
Celia J. Harrigan
Kevin B. Palmer
Lidet K.Negash
Deanna Wyatt
Jacqueline N. Pugh
